                                NATIONAL SCIENCE FOUNDATION
                                      4201 Wilson Boulevard
                                    ARLINGTON, VIRGINIA 22230




      OFFICE OF
 INSPECTOR GENERAL




MEMORANDUM

DATE:

TO:            Bradley Poston, Interim Director
               givision of Acquisition and Cooperative Support
                     1    4, . t&W%\,
FROM:          Deborah H. Cureton
               Associate Inspector General for Audit

SUBJECT:       NSF OIG Audit Report No. OIG-06-1-002,
               University of Miami Rosenstiel School

In response to your request for an audit of the University of the Miami Rosenstiel School's
(UMRS) Fiscal Years (FY) 2000-2004 incurred cost proposal subn~issionclaimed under NSF
Contract No. OPP-9909307, we contracted with the Defense Contract Audit Agency (DCAA),
Tampa Bay Branch Office to perform an audit 1) to determine allowability, allocability and
reasonableness of costs incurred and 2) to ensure that costs claimed were in accordance with the
contract terms and applicable government acquisition regulations. DCAA also verified that
LTMRS is accounting for property acquired under the NSF contract in accordance with the terms
and conditions of the contract. The completed DCAA Audit Report dated November 21, 2005 is
included as an Attachment to this letter. Our contract with DCAA required that the audit be
performed in accordance with Generally Accepted Government Auditing Standards.

The audit report disclosed that the costs claimed under the contract, totaling $3,049,007, are
considered allowable, allocable, and reasonable for all direct and indirect costs in accordance
with the contract terms and applicable government acquisition regulations.

DCAA also verified that UMRS is accounting for property acquired under the NSF coiltract in
accordance with the terms and conditions of the contract. The Statement of Claimed Costs under
the contract and the results of the audit are presented by contract year to facilitate your use for
contract closeout purposes.
OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

       Reviewed DCAA's approach and planning of the audit;

       Monitored the progress of the audit at key points;

       Coordinated periodic meetings with DCAA and OIG management to discuss audit
       progress, findings, and recommendations;

       Reviewed the audit report, prepared by DCAA to ensure compliance with Government
       Auditing Standards and Office of Management and Budget Circulars; and

       Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor's report on UMRS and the conclusions expressed
in the report. The NSF OIG does not express any opinion on the conclusions presented in
DCAA's audit report.

We thank you and your staff for the assistance that was extended to us during the audit. If you
have any questions about the attached report, please contact Ken Stagner at (303) 312-7655 or
Jannifer Jenkins at (703) 292-4996.




Attachment

cc: Patrick Smith, OPP
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 1271– 2005L17900014

                                                                November 21, 2005
PREPARED FOR: National Science Foundation
              ATTN: Deborah H. Cureton
              Associate Inspector General for Audit
              4201 Wilson Boulevard
              Arlington, VA 33301

PREPARED BY:      DCAA Tampa Bay Branch Office
                  14450 46th Street North, Suite 106
                  Clearwater, FL 33762-2921
                      Telephone No.      (727) 533-2120
                      FAX No.             (727) 535-9966
                      E-mail Address     dcaa-fao1271@dcaa.mil

SUBJECT:          NSF Contract No. OPP-9909307

REFERENCES:       DCAA Chron. No.: 6-8004
                  DCMAE-SOTC Case No. 312-5-E06-0014
                  Relevant Dates: (See Page5)

CONTRACTOR:       University of Miami Rosenstiel School
                  4201 Wilson Blvd.
                  Arlington, VA 22230

REPORT RELEASE RESTRICTIONS: See Page 6

                                                                                    Page
CONTENTS:          Subject of Audit                                                  1
                   Scope of Audit                                                    1
                   Results of Audit                                                  2
                   Contractor Organization and Systems                               4
                   DCAA Personnel and Report Authorization                           5
                   Audit Report Distribution and Restrictions                        6




                            FOR OFFICIAL USE ONLY
Audit Report No. 1271-2005L17900014


                                       SUBJECT OF AUDIT

       As requested by the National Science Foundation (NSF) on September 8, 2005, we
examined costs incurred by the University of Miami Rosenstiel School under NSF Contract
No. OPP-9909307. The purpose of the examination was to determine allowability, allocability,
and reasonableness of costs incurred and to ensure that costs were in accordance with the
contract terms and applicable government acquisition regulations. The period of contract
performance was June 1, 1999 thru May 31, 2004. We were also requested to verify that
University of Miami Rosenstiel School is accounting for property acquired under the NSF
contract in accordance with the term and conditions of the contract.

       The costs claimed on NSF Contract No. OPP-9909307 and related supporting data are the
responsibility of the University of Miami Rosenstiel School. Our responsibility is to express an
opinion on the acceptability of the costs claimed under NSF Contract No. OPP-9909307 based
on our examination.

                                     SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to
obtain reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

       •      obtaining an understanding of internal control for accumulating costs under
              prospective Government contracts;
       •      examining, on a test basis, evidence supporting the amounts and disclosures in
              the data and records evaluated;
       •      assessing the accounting principles used and significant estimates made by the
              contractor; and
       •      evaluating the overall data and records presentation.

       We evaluated the cost incurred using the applicable requirements contained in the:

       •      OMB Circular A-122, “Cost Principles for Non-Profit Organizations”;
       •      Federal Acquisition Regulation (FAR); and
       •      Specific contract provisions contained in NSF Contract No. OPP-9909307.

       The University of Miami Rosenstiel School claims exemption under 48 CFR 9903.201-
1(b)(7) from the practices required by the Cost Accounting Standards Board because coverage
threshold is not met.

       Our assessment of control risk reflects that we have not specifically examined the
University of Miami Rosenstiel’s accounting system and its related internal controls. Refer to
the Contractor Organization and System section of this report for further details. The scope of




                                FOR OFFICIAL USE ONLY
Audit Report No. 1271-2005L17900014

our examination reflects our assessment of control risk and includes tests of compliance with
applicable laws and regulations that we believe provide a reasonable basis for our opinion.

                                    RESULTS OF AUDIT

       In our opinion, final invoice No. 53 issued under NSF Contract No. OPP-9909307, is
acceptable for processing by your office. The costs claimed are considered allowable, allocable,
and reasonable for all direct and indirect costs in accordance with the contract terms and
applicable government acquisition regulations, and are therefore reimbursable. At your request,
we examined the direct costs and applied the contractor’s predetermined indirect cost rates for
each of the years audited. We also verified that the University of Miami Rosenstiel School is
accounting for property acquired under the NSF contract in accordance with the terms and
conditions of the contract.

       The submission is the responsibility of the University of Miami Rosenstiel School. Our
responsibility is to express an opinion on the submission based on our examination.

       Per your request, we have presented below the claimed cost by contract performance
periods to facilitate closeout procedures by the Contracting Officer.

                                                                                        EXHIBIT

     STATEMENT OF CLAIMED COST UNDER NSF CONTRACT NO. OPP-9909307
                        AND RESULTS OF AUDIT


                     TOTAL     FY 2000/ YR 1 FY 2001/ YR 2 FY 2002/ YR 3 FY 2003/ YR 4 FY 2004/ YR 5
Salaries               XXXXX        XXXXX             XXX       XXXXX            XXX       XXXXXX
Fringe Benefits        XXXXX        XXXXX         XXXXX         XXXXX         XXXXX            XXX
Other                     XXX       XXXXX         XXXXX         XXXXX         XXXXX         XXXXX
Consultant Fees        XXXXX           XXX            XXX          XXX        XXXXX         XXXXX
Supplies               XXXXX        XXXXX           XXXX           XXX        XXXXX            XXX
Travel                 XXXXX        XXXXX         XXXXX         XXXXX            XXX        XXXXX
Physical Plant            XXX          XXX        XXXXX         XXXXX         XXXXX            XXX
Equipment                 XXX       XXXXX             XXX          XXX           XXX          XXXX
Overhead               XXXXX        XXXXX             XXX          XXX           XXX          XXXX
Total Cost Claimed $ 3,049,007 $ 451,964 $        688,465 $ 830,187 $ 556,737 $             521,654




Explanatory Note - Claimed Costs

    a.   Summary of Conclusions:



                                                2

                                 FOR OFFICIAL USE ONLY
Audit Report No. 1271-2005L17900014

         We take no exception to costs claimed under NSF Contract No. OPP-9909307.



    b.    Basis of Claimed Costs:

        The direct costs claimed are based on actual direct costs incurred on the contract. The
indirect costs claimed are based on predetermined rates established in the contract.

    c.    Audit Evaluation:

        We tested the direct costs claimed for allocability, allowability, and accordance with
contract terms. We assured that the indirect costs did not exceed predetermined rates established
in the contract.

    d.    Contractor’s Reaction:

          The contractor concurred.

       We also noted that the University of Miami Rosenstiel School is accounting for property
acquired under the NSF contract in accordance with the terms and conditions of the contract.

       We discussed the results of this examination with XXXXXXXXXXXXXX, the
University of Miami Rosenstiel School representative, in an exit conference held on November
9, 2005. The contractor’s representative agrees with our audit results.




                                               3

                                   FOR OFFICIAL USE ONLY
Audit Report No. 1271-2005L17900014


                   CONTRACTOR ORGANIZATION AND SYSTEMS

1. Organization

   The University of Miami was founded in 1925. The Rosenstiel School became part of the
   University of Miami in 1940, located in Miami on Virginia Key. At present, there are 102
   full-time and 9 part-time employees. Sales for fiscal year ended December 31, 2004 were
   approximately $3.5 million, the majority of sales were firm fixed price or to commercial
   customers.

2. Accounting System

   The University of Miami Rosenstiel School’s accounting period is from June 1 to May 31.
   The University of Miami is audited under the Single Audit Reports in Accordance with OMB
   Circular A-133 and Chapter 10.650, Rules of the Auditor General of the State of Florida.
   Their independent auditors are KPMG LLP of Miami, Florida.

   The University of Miami Rosenstiel School maintains an accounting system on a cash basis.
   Its accounting system is posted on a current basis. Appropriate adjusting entries are made at
   the end of each month and at year end. The University of Miami Rosenstiel School is part of
   the consolidated financial statements audited annually by KPMG. We have not performed an
   examination of the University of Miami Rosenstiel School’s accounting system and related
   internal control policies and procedures; therefore, we cannot issue an opinion on the
   adequacy of the system as a whole.




                                               4

                                FOR OFFICIAL USE ONLY
Audit Report No. 1271-2005L17900014


                                      DCAA PERSONNEL

                                                            Telephone No.
Primary contacts regarding this audit:

         XXXXXXXXXXXXXX                                     XXXXXXXXXXXX
         XXXXXXXXXXXXXXXXXXXX                               XXXXXXXXXXXX
         XXXXXXXXXXXXXXXXXXXX                               XXXXXXXXXXXX

Other contacts regarding this audit report:

         XXXXXXXXXXXXXXXX                                   XXXXXXXX
         XXXXXXXXXXXXXXXXXXXXXX                             XXXXXXXX

                                                            FAX No.
         XXXXXXXXXXXX                                       XXXXXXXX
         XXXXXXXXXXXXXXXXXXXXXX                             XXXXXXXX

                                                            E-mail Address
         XXXXXXXXXXXX                                       XXXXXXXXXXX

General information on audit matters is available at http://www.dcaa.mil.


                                      RELEVANT DATES

Request for Audit:  Letter dated September 1, 2005; received September 8, 2005
Due Date Extension: Requested November 15, 2005; extended to November 18, 2005
                    Requested November 18, 2005; extended to November 21, 2005




AUDIT REPORT AUTHORIZED BY:


                                                    XXXXXXXXXXXXX

                                                    XXXXXXXXX
                                                    XXXXXXXX
                                                    XXXXXXXXXXXXXXX




                                               5

                                 FOR OFFICIAL USE ONLY
Audit Report No. 1271-2005L17900014


                 AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION                                                     E-mail Address

National Science Foundation
ATTN: Associate Inspector General for Audit                       dcureton@nsf.gov
Deborah H. Cureton                                                smcgrego@nsf.gov
4201 Wilson Boulevard
Arlington, VA 33301

University of Miami                                               (Copy furnished thru NSF-IOG)
Rosenstiel School of Marine and Atmospheric Science
4600 Rickenbacker Causeway
Miami, FL 33149-1098

DCAA Financial Liaison Advisor                                    dcaa-pla-nondod@dcaa.mil
ATTN: OAL-Sr. Non-DoD FLA (Ms. Paulette Stephens)
8725 John J. Kingman Road, Suite 2135
Ft. Belvoir, VA 22060-6219

RESTRICTIONS

1. Information contained in this audit report may be proprietary. It is not practical to identify
   during the conduct of the audit those elements of the data which are proprietary. Make
   proprietary determinations in the event of an external request for access. Consider the
   restrictions of 18 U.S.C. 1905 before releasing this information to the public.

2. Under the provisions of Title 32, Code of Federal Regulations, Part 290.7(b), DCAA will
   refer any Freedom of Information Act request for audit reports received to the cognizant
   contracting agency for determination as to releasability and a direct response to the
   requestor.

3. Do not use the information contained in this audit report for purposes other than action on the
   subject of this audit without first discussing its applicability with the auditor.




                                                6

                                 FOR OFFICIAL USE ONLY
